OIG Investigative Reports, Jury Returns Guilty Verdicts in Fraud Case
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
For Immediate Release
June 30, 2004
Eastern District of Michigan
Jeffrey G. Collins
United States Attorney
Suite 2001
211 West Fort Street
Detroit, Michigan 48226-3277
Gina Balaya (313) 226-9758
Contact: Christopher Fox, Special Agent in Charge, Department of Education, OIG
Jury Returns Guilty Verdicts in Fraud Case
A jury, after deliberating for approximately eight hours, returned guilty verdicts today against Mahmoud Younis, 55, of Dearborn, Michigan, the owner and director of The Training Center located a 5003 Schaefer, Detroit; Registrar and Assistant Director, Walid Alsabbagh, age 40 of Dearborn, Michigan; Director of Education, Jamal Mourtada, 50 of Detroit, Michigan; and Admissions Director, Muna Jaber, 46 of Dearborn, Michigan on charges of Conspiracy to Defraud the United States Department of Education, wire fraud, and student financial aid fraud. Additionally, Instructor, Sahar Younes, 26 of Dearborn, Michigan was convicted of student financial aid fraud, United States Attorney Jeffrey G. Collins announced today. Samira Mouzahem was acquitted of making a false statement.
Three other defendants is this case have previously plead guilty. They include Miriam Chibb Chibb who plead guilty to making a false statement, Linda Johnson, the Financial Aid Director, who plead guilty to student financial aid fraud and Gregory Moore, the Ability to Benefit Test Administrator who plead guilty to student financial aid fraud.
The four-week trial was conducted before the Honorable Paul D. Borman in Detroit, Michigan.
The evidence presented at trial established that the defendants Younis, Alsabbagh, Mourtada and Jaber falsified or directed the falsification of records and violated regulations in order to continue accreditation and to receive funds from the Department of Education (DOE) by falsifying General Educational Development (GED) certificates, high school diplomas, Ability to Benefit tests and certifications of foreign high school education. In addition, records of students enrolled in or attending classes in ineligible programs were altered and falsified to make it appear as though the students were in an eligible program. The ineligible programs included English as a second language and automated computer aided design. The funds that DOE provided were used for purposes other than to further student education. The amount of loss suffered by the Department of Education is estimated to be approximately $1,000,000.
Mr. Collins added that, "conspiracy to defraud, wire fraud, and student financial aid fraud carries a maximum penalty of five years in prison and a $250,000 fine. Additionally, the student financial aid fraud alone carries a maximum penalty of five years in prison and a $20,000 fine. Any sentence will ultimately be imposed under the United States Sentence Guidelines according to the nature of the offense and the criminal background, if any, of the defendants." Sentencing for defendants Younis, Alsabbagh, Mourtada, Jaber and Younes, has been set for October 1, 2004.
This case was investigated by the Department of Education, Office of Inspector General and prosecuted by Assistant United States Attorney F. William Soisson.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov